TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Remediation Plan Still Does Not Contain
                  All the Necessary Actions to Address the
                   Unpaid Assessments Material Weakness



                                           July 19, 2012

                              Reference Number: 2012-10-069




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                      HIGHLIGHTS


THE REMEDIATION PLAN STILL DOES                          TIGTA also found that this year’s remediation
NOT CONTAIN ALL THE NECESSARY                            plan does not include any specific detail related
ACTIONS TO ADDRESS THE UNPAID                            to the Customer Account Data Engine 2
ASSESSMENTS MATERIAL WEAKNESS                            (CADE 2). Since the CADE 2 is the key piece
                                                         of the IRS’s strategy to address its material
                                                         weakness related to unpaid assessments,
Highlights                                               TIGTA continues to believe this information
                                                         should be included in the remediation plan. Until
                                                         the IRS updates its FFMIA remediation plan with
Final Report issued on July 19, 2012                     additional information and actions related to
                                                         addressing the unpaid assessments material
Highlights of Reference Number: 2012-10-069              weakness, TIGTA will be unable to fully assess
to the Internal Revenue Service Chief Financial          the IRS’s overall progress in resolving its
Officer.                                                 noncompliance with the FFMIA.
IMPACT ON TAXPAYERS                                      Additionally, our review of the remediation plan
The Federal Financial Management                         found that the IRS did not complete two of the
Improvement Act (FFMIA) remediation plan is a            remedial actions that the plan indicated were
critical part of the IRS’s efforts to bring its          closed. Because the actions were not taken,
financial management systems into compliance             additional actions will be necessary to resolve
with the FFMIA and to provide reliable and               the underlying material weakness. As such,
timely financial data. Overall, the IRS still faces      TIGTA believes the IRS should have developed
challenges in its efforts to comply with the             new action items to address the issue rather
FFMIA. Complete and reliable financial                   than close these two actions.
information is critical to the IRS’s ability to          WHAT TIGTA RECOMMENDED
accurately report on the results of its operations
to both internal and external stakeholders,              TIGTA recommended that the IRS’s Chief
including taxpayers.                                     Financial Officer: 1) determine whether the
                                                         November 2014 implementation of the CADE 2
WHY TIGTA DID THE AUDIT                                  that fully addresses the unpaid tax assessments
The overall objectives of this review were to            material weakness is still achievable and update
report to Congress, as required by the FFMIA,            future remediation plans with a more accurate
any instances of and reasons for missed                  date, if necessary, and 2) develop alternative
intermediate target dates established in the             actions and target implementation dates for the
IRS’s September 30, 2011, FFMIA remediation              two issues TIGTA identified.
plan, and to determine whether the IRS has               In their response, IRS management agreed with
taken adequate corrective actions on prior audit         our recommendations. Management agreed to
findings related to the plan.                            determine whether the November 2014
WHAT TIGTA FOUND                                         implementation date for CADE 2 is still
                                                         achievable and to develop alternative actions
The IRS continues to face challenges in                  and target implementation dates for the two
becoming compliant with the FFMIA. Our                   issues TIGTA identified.
review of the IRS’s September 30, 2011,
FFMIA remediation plan identified that the plan
continues to provide specific remediation actions
to address the material weakness relating to
information security. However, as previously
reported, the IRS continues to not fully include
costs and remediation actions relating to
addressing the unpaid assessments material
weakness.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 19, 2012


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Remediation Plan Still Does Not Contain
                                 All the Necessary Actions to Address the Unpaid Assessments
                                 Material Weakness (Audit # 201210012)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Federal
 Financial Management Improvement Act1 (FFMIA) remediation plan for Fiscal Year 2011. The
 overall objectives of this review were to report to Congress, as required by the FFMIA, any
 instances of and reasons for missed intermediate target dates established in the IRS’s
 September 30, 2011, FFMIA remediation plan, and to determine whether the IRS has taken
 adequate corrective actions on prior audit findings related to the plan. This review is included in
 our Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge area of
 Achieving Program Efficiencies and Costs Savings.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
     Pub. L. No. 104-208, 110 Stat. 3009.
                                          The Remediation Plan Still Does Not
                                      Contain All the Necessary Actions to Address
                                      the Unpaid Assessments Material Weakness




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Remediation Plan Still Does Not Contain All the
          Necessary Actions to Address the Unpaid Assessments
          Material Weakness ........................................................................................ Page 3
                    Recommendation 1:.......................................................... Page 4

          Two Remediation Action Items Were Misclassified As
          Completed ..................................................................................................... Page 4
                    Recommendation 2:.......................................................... Page 5


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Management’s Response to the Draft Report ...................... Page 10
             The Remediation Plan Still Does Not
         Contain All the Necessary Actions to Address
         the Unpaid Assessments Material Weakness




                Abbreviations

CADE 2    Customer Account Data Engine 2
CFO       Chief Financial Officer
FFMIA     Federal Financial Management Improvement Act
GAO       Government Accountability Office
                                     The Remediation Plan Still Does Not
                                 Contain All the Necessary Actions to Address
                                 the Unpaid Assessments Material Weakness




                                              Background

The Federal Financial Management Improvement Act of 1996 (FFMIA)1 was established to
advance Federal financial management by ensuring that Federal financial management systems
provide accurate, reliable, and timely financial
management information to the Government’s managers.
                                                                 As of November 2011, the
Further, this disclosure should be done on a basis that is      Government Accountability
uniform across the Federal Government from year to year       Office continued to report that
by consistently using professionally accepted accounting     the IRS’s financial management
standards. Specifically, FFMIA Section 803 (a) requires        systems do not comply with
                                                                   FFMIA requirements.
each agency to implement and maintain systems that
comply substantially with:
        Federal Government financial management systems requirements.
        Applicable Federal Government accounting standards.
        The United States Government Standard General Ledger2 at the transaction level.
If the agency’s financial systems do not comply, the agency is required to develop a remediation
plan that describes the resources, remedies, and intermediate target dates for achieving compliance
and to file the plan with the Office of Management and Budget. In addition, Section 804 (b)
requires that agency Inspectors General report to Congress instances when and reasons why an
agency has not met the intermediate target dates established in its remediation plan.
As of November 2011, the Government Accountability Office (GAO) continues to report3 that the
Internal Revenue Service’s (IRS) financial management systems do not substantially comply with
FFMIA requirements. Because the GAO has reported noncompliance with the requirements of the
FFMIA, the IRS has been required to prepare and maintain a remediation plan. Noncompliance
includes material weaknesses in internal controls over both information security and unpaid
assessments.4 The information security material weakness affects the reliability of the
IRS’s financial management information and increases the risk that confidential IRS and taxpayer
information is compromised. The unpaid assessments material weakness affects the IRS’s ability to
quantify the amount of unpaid assessments owed to the IRS.

1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  Provides a uniform Chart of Accounts and technical guidance to be used in standardizing Federal agency
accounting.
3
  Government Accountability Office, GAO-12-165, Financial Audit: IRS’s Fiscal Years 2011 and 2010 Financial
Statements (Nov. 2011).
4
  An unpaid assessment is a legally enforceable claim against a taxpayer and consists of taxes, penalties, and interest
that have not been collected or abated (a reduction in a tax assessment).
                                                                                                               Page 1
                                    The Remediation Plan Still Does Not
                                Contain All the Necessary Actions to Address
                                the Unpaid Assessments Material Weakness



Chief Financial Officer (CFO) management stated that the IRS implemented a new accounting
system in January 2010, the Redesign Revenue Accounting Control System, which allows it to
post transactions in compliance with Federal Government requirements, supports traceability for
revenue transactions, and further assists it in becoming compliant with the FFMIA. However,
the IRS informed us that it does not believe it will become fully compliant with the FFMIA and
address the material weakness relating to unpaid assessments until approximately
November 2014, pending successful implementation of Transition State 2 of the Customer
Account Data Engine 2 (CADE 2).
The CADE 2 will result in a single relational database to house all individual taxpayer accounts
in a central data source that will make reporting and retrieval faster and more efficient. The IRS
indicates that the CADE 2 system will result in timelier taxpayer data, increased analytical data
stores, improved/increased tools to more effectively use data for compliance and customer
service, and enhanced data security. The IRS also indicated that this will improve its ability to
quantify the amount of unpaid assessments.
The IRS began implementation of the CADE 2 in January 2012. The initial phase modified the
Individual Master File5 from a weekly cycle to daily processing, established a new relational
database to store all individual taxpayer account information, and provided management tools to
more effectively use data for compliance and customer service. The next phase launches a single
processing system whereby applications directly access and update the taxpayer account
database. The single processing system is designed to provide expanded traceability of taxpayer
account activity and identify duplicate tax assessments across multiple accounts. The IRS plans
to implement this phase in January 2014. The IRS has previously reported that closure of the
material weakness on unpaid assessments is dependent upon implementation of this phase of the
CADE 2 to provide the capability to properly categorize unpaid assessment data and provide an
audit trail to detailed taxpayer transactions.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the CFO during the period October 2011 through March 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 2
                                   The Remediation Plan Still Does Not
                               Contain All the Necessary Actions to Address
                               the Unpaid Assessments Material Weakness




                                    Results of Review

The IRS continues to face challenges in becoming compliant with the FFMIA. Our review of the
IRS’s September 30, 2011, FFMIA remediation plan identified that the plan continues to provide
specific remediation actions to address the material weakness relating to information security.
However, as we previously reported, the IRS continues to not fully include costs and remediation
actions relating to addressing the unpaid assessments material weakness. We found that this
year’s remediation plan does not include any specific details relating to the CADE 2. Since the
IRS indicates that the CADE 2 is the key piece of its strategy to address its material weakness
related to unpaid assessments, we continue to believe this information should be included in the
remediation plan. Until the IRS updates its FFMIA remediation plan with additional information
and actions related to addressing the unpaid assessments material weakness, we will be unable to
fully assess its overall progress in resolving its noncompliance with the FFMIA.

The Remediation Plan Still Does Not Contain All the Necessary
Actions to Address the Unpaid Assessments Material Weakness
In response to the unpaid assessments material weakness, the IRS is required by FFMIA Section
803 (a) to include in its remediation plan the resources, remedies, and intermediate target dates for
achieving compliance. Our review identified that this required information continues to not be
included in the plan. Specifically, the IRS continues to not fully report on the costs and specific
actions it plans to take to address the unpaid assessments material weakness.
In a previous TIGTA report,6 we recommended that the IRS include in future remediation plans
action items and costs related to the implementation of the CADE 2. IRS management disagreed
with this recommendation. As a result, this year’s remediation plan does not contain any specific
action items or costs associated with the CADE 2 system. However, the IRS does mention the
CADE 2 in the remediation plan’s executive summary, citing its importance in addressing the
unpaid assessments material weakness. The plan does not include detail on how the CADE 2
will assist in mitigating the unpaid assessments material weakness or additional actions related to
this weakness. Specifically, the FFMIA remediation plan indicates that the IRS expects to
implement the CADE 2 by November 2014 and, therefore, fully address its material weakness
over unpaid tax assessments.




6
 Treasury Inspector General for Tax Administration, Ref. No. 2011-10-041, Challenges Continue With Reporting
Complete and Accurate Information in the Federal Financial Management Improvement Act Remediation Plan
(May 2011).
                                                                                                      Page 3
                                  The Remediation Plan Still Does Not
                              Contain All the Necessary Actions to Address
                              the Unpaid Assessments Material Weakness



In its Fiscal Year 2013 budget request, the IRS requested an additional $148 million related to
the continued development of the CADE 2. However, we recently reported7 that management
indicated funding concerns may impact the implementation of the CADE 2 (Transition State 2)
by January 2014. Since the remediation plan does not include any intermediate action items and
dates for the CADE 2, we do not know the IRS’s progress related to the CADE 2 in resolving its
material weakness for unpaid assessments. As a result, we are unsure whether the November
2014 implementation date for the CADE 2 contained in the remediation plan is still accurate.
Management stated that the FFMIA remediation plan was created to address the actions required
for IRS financial systems and believes that the CADE 2 is not a financial system; rather, it is a
Business System Modernization project used to modernize the IRS tax system for individual
taxpayer account data. We continue to believe that including additional information in the
remediation plan will increase the likelihood of the IRS addressing the material weakness
relating to unpaid assessments. This will also enable external stakeholders to better understand
how the CADE 2 will address the material weakness and monitor the IRS’s progress in
becoming compliant with the FFMIA.

Recommendation
Recommendation 1: The IRS CFO should determine whether the November 2014
implementation of the CADE 2 that fully addresses the unpaid tax assessments material
weakness is still achievable and update future remediation plans with a more accurate date, if
necessary.
        Management’s Response: IRS management agreed with this recommendation. The
        CFO will reassess the November 2014 closing date for this material weakness once the
        scope for CADE 2 Transition State 2 has been determined. The CFO continues to work
        with the Wage and Investment Division, as the business owner, and with Modernization
        and Information Technology Services organization to determine the financial
        requirements that will be in the scope for the CADE 2 Transition State 2 build. The CFO
        will update the remediation plan with additional milestones and costs to address the
        material weakness on unpaid tax assessments to leverage the information from the
        CADE 2, as appropriate.

Two Remediation Action Items Were Misclassified As Completed
Remediation actions are the steps the IRS plans to take to resolve issues contributing to its
noncompliance with the FFMIA. Many of the actions detailed in the plan have an estimated

7
  Treasury Inspector General for Tax Administration, Ref. No. 2011-20-109, The Customer Account Data Engine 2
Is Making Progress Toward Achieving Daily Processing, but Improvements Are Warranted to Ensure Full
Functionality (Sept. 2011).
                                                                                                      Page 4
                               The Remediation Plan Still Does Not
                           Contain All the Necessary Actions to Address
                           the Unpaid Assessments Material Weakness



completion date and are long-term in nature. In its September 30, 2011, remediation plan, the
IRS reported that it:
      Added two remediation actions to the 30 open remediation actions.
      Completed 21 remediation actions, leaving 11 remaining open remediation actions.
      Extended two intermediate target dates for open remediation actions. Although the IRS
       had a reasonable explanation for the extended intermediate target date, delays could
       further hinder the IRS’s ability to timely resolve the reported issues that cause its
       noncompliance with the FFMIA.
Each of the 11 open remedial actions had an intermediate target date that extended more than
three years from the initial determination that IRS financial management systems were not in
substantial compliance with the FFMIA. As required, the IRS obtained concurrence from the
Office of Management and Budget to extend corrective actions beyond the three-year limitation.
However, of the 21 remediation actions completed, the IRS erroneously showed two of these
action items as being completed. For these two action items, we determined that the steps
needed to fully complete the actions were not taken. IRS management stated that the decision to
report these two actions as completed was based on a cost-benefit analysis indicating the cost of
implementation for the actions would exceed the benefits of implementation. Both action items
related to programming changes concerning its accounting systems. The IRS advised us that it
considers these two actions to be closed even though future actions will be necessary to fully
resolve the underlying issue of resolving the unpaid assessments material weakness. Because the
necessary actions specified in the remediation plan were not taken and additional actions will be
necessary to resolve the unpaid assessments material weakness, we believe the IRS should have
developed new action items rather than close these two action items.

Recommendation
Recommendation 2: The IRS CFO should develop alternative actions and target
implementation dates for the two issues we identified. These actions should be included in
future remediation plans.
       Management’s Response: The IRS agreed with this recommendation. The CFO
       closed the two corrective actions identified because they were not cost effective. Instead,
       the CFO added 15 new corrective actions to the internal unpaid assessments material
       weakness action plan and will add these corrective actions to the third quarter Fiscal
       Year 2012 remediation plan.




                                                                                           Page 5
                                   The Remediation Plan Still Does Not
                               Contain All the Necessary Actions to Address
                               the Unpaid Assessments Material Weakness



                                                                                             Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to report to Congress, as required by the FFMIA,1
any instances of and reasons for missed intermediate target dates established in the IRS’s
September 30, 2011, FFMIA remediation plan, and to determine whether the IRS has taken
adequate corrective actions on prior audit findings related to the plan. To accomplish our
objective, we:
I.      Researched the requirements of the FFMIA, including Office of Management and
        Budget and Department of the Treasury guidance for compliance with it.
II.     Determined whether the IRS’s remediation plan was consistent with
        GAO recommendations from prior IRS financial audits and related financial
        management reports.
III.    Determined whether 1) the IRS missed any intermediate target dates established in its
        remediation plan, 2) intermediate target dates were extended without sufficient
        documentation to support the revised dates, and 3) proper approval was obtained for
        remedial actions extending more than three years.
        A. Verified that all remedial actions have intermediate target dates established.
        B. Identified instances when the IRS had not met the intermediate target dates.
        C. If instances of missed dates were identified, interviewed IRS officials about the
           reason the IRS did not meet the intermediate target date.
        D. Compared the September 30, 2011, FFMIA remediation plan to the Fiscal Year 2010
           plan to identify intermediate target dates that have changed since the previous
           Treasury Inspector General for Tax Administration review.2 We also obtained and
           analyzed documentation in support of any changes.




1
 Pub. L. No. 104-208, 110 Stat. 3009.
2
 Treasury Inspector General for Tax Administration, Ref. No. 2011-10-041, Challenges Continue With Reporting
Complete and Accurate Information in the Federal Financial Management Improvement Act Remediation Plan
(May 2011).
                                                                                                      Page 6
                               The Remediation Plan Still Does Not
                           Contain All the Necessary Actions to Address
                           the Unpaid Assessments Material Weakness



IV.    Determined whether 1) the IRS remediation plan had established resource needs for
       remedial actions and 2) the resources presented were consistent with supporting
       documentation.
       A. Verified that resource requirements were identified for all remedial actions.
       B. Obtained budget information.
       C. Traced remediation plan resources to budget information.
       D. Interviewed the functional financial plan managers associated with all significant cost
          estimates.
V.     Determined whether the IRS had taken adequate corrective actions on prior reported audit
       findings related to the FFMIA remediation plan.
       A. Identified the prior year’s Treasury Inspector General for Tax Administration audit
          findings and corresponding management responses concerning corrective actions that
          should have been completed by the time of our audit.
       B. Confirmed through discussions and observations that actions had been completed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS’s policies, procedures, and
practices for tracking remediation actions implemented due to identified material weaknesses.
We evaluated these controls by interviewing management and reviewing applicable
documentation.




                                                                                          Page 7
                             The Remediation Plan Still Does Not
                         Contain All the Necessary Actions to Address
                         the Unpaid Assessments Material Weakness



                                                                           Appendix II

                Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
LaToya R. Penn, Lead Auditor
Mary F. Herberger, Senior Auditor
Joseph P. Smith, Senior Auditor




                                                                                   Page 8
                             The Remediation Plan Still Does Not
                         Contain All the Necessary Actions to Address
                         the Unpaid Assessments Material Weakness



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Financial Officer for Corporate Planning and Internal Controls OS:CFO:CPIC
Chief Counsel CC
National Tax Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief Financial Officer OS:CFO
   Chief Technology Officer OS:CTO




                                                                                     Page 9
             The Remediation Plan Still Does Not
         Contain All the Necessary Actions to Address
         the Unpaid Assessments Material Weakness



                                                  Appendix IV

Management’s Response to the Draft Report




                                                        Page 10
    The Remediation Plan Still Does Not
Contain All the Necessary Actions to Address
the Unpaid Assessments Material Weakness




                                               Page 11
    The Remediation Plan Still Does Not
Contain All the Necessary Actions to Address
the Unpaid Assessments Material Weakness




                                               Page 12
